                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              GPRA DATA VALIDATION REVIEW
                                              TRADE ADJUSTMENT ASSISTANCE PROGRAM




                                                                   Date Issued: September 15, 2005
                                                                   Report Number: 22-05-007-03-330
U.S. Department of Labor                                September 2005
Office of Inspector General
Office of Audit                                         GPRA Data Validation Review, Trade
                                                        Adjustment Assistance Program

BRIEFLY…                                                WHAT OIG FOUND
                                                        Based on our review of the eight CY 2003 data
Highlights of Report Number: 22-05-007-03-              elements used to report GPRA performance goal
330 to the Assistant Secretary for                      2.3B, we verified 7 data elements to source
                                                        documentation found in participant files. However,
Employment and Training.
                                                        we found the eighth element, “date of exit,” could not
September 2005                                          be verified due to the following reasons:

WHY READ THE REPORT                                             The “date of exit” element was recorded as
                                                                an anticipated date, not the last date of
The Trade Adjustment Assistance (TAA) program,                  services as required by TAA guidelines.
which is administered by Labor’s Employment and
Training Administration (ETA), was established in               The State Workforce Agencies (SWAs) did
1974 to assist individuals who became unemployed                not have source documentation available to
as a result of increased imports return to suitable             verify the “date of exit” element.
employment. TAA’s goal is to increase the
employment, retention, and earnings replacement of      Five of the seven data elements verified to source
workers dislocated because of trade.                    documentation were dependent on the “date of exit”
                                                        and, therefore, were not complete or reliable.

The Labor Department relies on participant data,        WHAT OIG RECOMMENDED
submitted quarterly by the states, to assess whether    To improve the completeness and reliability of Trade
or not a program is achieving its yearly goals and if   Adjustment Assistance program’s performance data,
changes are needed to make it more effective.           we recommend the Assistant Secretary for
Congress may review performance information in          Employment and Training ensure the TAA Program:
making decisions about future program funding.
                                                                Collects and records the participant’s actual
WHY OIG DID THE REVIEW                                          “date of exit” according to ETA’s written
                                                                definition.
We conducted our review to determine the                        Properly manages and maintains source
completeness and reliability of the CY 2003 data                documentation to support the actual “date of
used to support the FY 2003 performance goal 2.3B               exit,” and makes it readily available for
(changed in FY 2004 to 1.1G): Increase the                      review.
employment, retention, and earnings replacement of
workers dislocated in important part because of         ETA concurred with the recommendations and
trade and who receive trade adjustment assistance       provided information about actions taken and
benefits. We selected TAA data from CY 2003 for         planned to address the recommendations.
our review. Four states and 150 exiters were
judgmentally selected for our review.

READ THE FULL REPORT
To view the report, including the scope,
methodology, and full agency response, go to:
http://www.oig.dol.gov/publicreports/oa/2005/22-05-
007-03-330.pdf.
                                                                       GPRA Data Validation Review, TAA Program




Table of Contents
                                                                                                                         PAGE
EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

FINDING AND RECOMMENDATIONS .......................................................................... 6

   Finding - TAA’s “date of exit” element could not be substantiated due to lack of
            source documentation. .............................................................................. 6


EXHIBIT ........................................................................................................................ 11

   A. Trade Adjustment Assistance Performance Data and Results for calendar
      year 2003.............................................................................................................. 13


APPENDICES ............................................................................................................... 15

   A. Background ......................................................................................................... 17
   B. Objective, Scope, Methodology, and Criteria ................................................... 19
   C. Acronyms and Abbreviations ............................................................................ 21
   D. Agency Response To Draft Report.................................................................... 23




U.S. Department of Labor—Office of Inspector General                                                                             1
Report Number: 22-05-007-03-330
GPRA Data Validation Review, TAA Program




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                      U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-007-03-330
                                                   GPRA Data Validation Review, TAA Program



Executive Summary
The Office of Inspector General (OIG) conducted a review of calendar year 2003 data
collected and reported from the Trade Act Participant Report (TAPR) of the Employment
and Training Administration’s (ETA) Trade Adjustment Assistance (TAA) program. TAA
was established in 1974 to assist individuals who have become unemployed as a result
of increased imports from, or shifts in production to, foreign countries. ETA administers
the program and the State Workforce Agencies (SWA) serve as the agents operating
the program.

We conducted our review to determine the completeness and reliability of the
CY 2003 data used to support the performance goal 2.3B. Since ETA implemented its
Data Validation Initiative in August 2003, states are required to attest to the accuracy of
the data they submit to ETA. ETA compiles the data and computes and reports the final
results in the Department of Labor (DOL) Annual Performance and Accountability
Report. OIG relied on CY 2003 TAPR data to compile the schedule of TAA
performance data and results for CY 2003, specifically for DOL’s Government
Performance and Results Act (GPRA) goal related to increasing the employment,
retention, and earnings replacement of TAA participants. The accuracy of the reported
results for the performance goal relies on the validity of the TAPR data elements.


Results

Based on our review, we concluded that for the states included in our sample, the
participant “date of exit” data element was unsupported by source documentation.
Accurate recording of the exit data is critical because the TAA GPRA goal addresses
participant employment status and earnings in the first and third quarters after exit. The
recording of the “date of exit” element is done at the participant’s intake of a training
program based on the anticipated date that training will end. However, there was no
source documentation, in any of the 150 exiter case files reviewed in the 4 states
visited, to verify that the participant completed the program on the recorded date of exit.
In addition, five of the other seven data elements used by ETA to support Performance
Goal 2.3B were dependent on the “date of exit” and, therefore, were not complete or
reliable.

Recommendations

To improve the completeness and reliability of the Trade Adjustment Assistance
program’s performance data, we recommend the Assistant Secretary for Employment
and Training ensure the TAA Program:

   Collects and records the participant’s actual “date of exit” according to ETA’s written
   definition.

U.S. Department of Labor—Office of Inspector General                                      3
Report Number: 22-05-007-03-330
GPRA Data Validation Review, TAA Program

    Properly manages and maintains source documentation to support the actual “date
    of exit,” and makes it readily available for review.

Agency Response

In response to our draft report, the Assistant Secretary for Employment and Training
stated that ETA has clarified the “date of exit” definition in Training and Employment
Guidance Letter (TEGL) 32-04. Additionally, ETA has recently received OMB approval
of a revision to the TAPR that reflects common performance measures and reporting
definitions for all employment and training programs. As part of common measures
implementation, ETA will also be issuing revised reporting instructions to the states,
which will provide additional explanation of the “date of exit.” Finally, ETA intends to
issue additional guidance to the states addressing the specific finding that states are
entering the “date of exit” at intake based on the date it is anticipated that training will
end.

The ETA’s response in its entirety is attached as Appendix D.

OIG Conclusion

We agree with ETA’s planned corrective actions. The recommendations are resolved
and open. They will be closed upon OIG’s receipt and review of revised reporting
instructions that further explain the “date of exit” and identify the documentation that
states must maintain to support the recorded “date of exit.”




4                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-05-007-03-330
                                                     GPRA Data Validation Review, TAA Program

U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report


Emily Stover DeRocco
Assistant Secretary for
 Employment and Training


The Trade Adjustment Assistance (TAA) program’s purpose is to assist individuals, who
become unemployed as a result of increased imports, return to suitable employment.
The Employment and Training Administration (ETA) administers the program and each
state designates a State Workforce Agency (SWA) to serve as the Department of
Labor’s (DOL) agent in administering the program.

The FY 2003 TAA program performance goal, reported in the DOL Annual Performance
and Accountability Report as performance goal number 2.3B, is as follows:

Increase the employment, retention, and earnings replacement of workers dislocated in
important part because of trade and who receive trade adjustment assistance benefits.

   78% will be employed in the first quarter after program exit;
   88% of those employed in the first quarter after program exit will be employed in the
   third quarter after program exit; and
   Those who are employed in the third quarter after program exit will earn, on
   average, 90% of their pre-separation earnings.

Program performance data to support this goal is collected at the local SWA office level.
ETA compiles the data and computes and reports the final results in the DOL Annual
Performance and Accountability Report. The data elements must be accurate to ensure
the reliability of the data reported.

The TAPR encompasses 49 data elements; however, our objective was to review the 8
data elements used to report the results of the performance goal 2.3B. Office of
Inspector General (OIG) auditors reviewed the three data elements related to date of
exit, including: the last date participants received TAA or other Workforce Investment
Act (WIA) Title I services; and whether or not the participant was employed in the first
and third full quarters after the exit date. The five data elements related to reported
earnings include earnings in the first, second and third full quarters after exit and the
second and third quarters prior to the participant’s most recent qualifying separation.


U.S. Department of Labor—Office of Inspector General                                        5
Report Number: 22-05-007-03-330
GPRA Data Validation Review, TAA Program

The auditors used these data elements to determine the completeness and reliability of
the DOL CY 2003 performance data for TAA. Without complete and reliable participant
data, ETA cannot effectively measure its progress toward achieving the GPRA goal
related to increasing the employment retention and earnings replacement of TAA
participants.

We obtained the quarterly TAPRs of TAA performance summary data from ETA for CY
2003. The auditors compiled the data received, and using ETA’s formulas, calculated
results based on CY 2003 data. (See Exhibit A.)

Our review was conducted in accordance with the attestation standards established by
the American Institute of Certified Public Accountants and the standards applicable to
attestations contained in Government Auditing Standards, issued by the Comptroller
General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the TAA
performance data and results. Accordingly, we do not express such an opinion.

Based on our review, we concluded that for the states included in our sample, the
participant “date of exit” data element, was unsupported by source documentation.
Accurate recording of the exit data is critical because the TAA GPRA goal addresses
participant employment status and earnings in the first and third quarters after exit. The
recording of the “date of exit” element is done at the participant’s intake of a training
program based on the anticipated date that training will end. However, there was no
source documentation, in any of the 150 exiter case files reviewed in the 4 states
visited, to verify that the participant completed the program on the recorded date of exit.

We were able to verify to source documents the data used to report the program results
for the other seven data elements; however, the accuracy of the data for five of these
seven elements is dependent upon the accuracy of the “date of exit” data element. For
example, the “date of exit” must be accurate to determine if a participant is employed in
the first quarter after exit. Since data from these elements are used by ETA to support
Performance Goal 2.3B, we were unable to determine the completeness and reliability
of the reported performance data for the TAA program.

FINDING AND RECOMMENDATIONS

Objective – Is CY 2003 GPRA performance data for TAA complete and reliable?

Finding - TAA’s “date of exit” element could not be substantiated due to lack of
          source documentation.

SWA personnel were unable to provide source documentation to verify that the
recorded “date of exit” element was accurate for any of the 150 case files reviewed in
the 4 states visited. This is due to the fact that the “date of exit” element is recorded as
an anticipated date at intake and there was no documentation to verify that the
participant completed the training on the recorded date. This method is not consistent

6                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-05-007-03-330
                                                   GPRA Data Validation Review, TAA Program

with ETA’s written guidelines for recording the “date of exit” data element. ETA’s written
guidelines require documentation of the last date the participant received Trade Act
services.

The main criteria that govern the work performed are as follows:

       OMB Circular No. A-11 (July 16, 2004), Section 230.2 which states that agencies
       are required to assess the completeness and reliability of performance data
       reported;
       OMB A-123, which requires agency managers to incorporate control strategies,
       plans, guidance and procedures that govern their program’s operations;
       ETA Training and Employment Guidance letter No. 11-00, which requires
       documentation of last date on which Trade Act services or WIA Title I services
       received by participants; and
       Government Accountability Office (GAO) Standards for Internal Control in the
       Federal Government November 1999.

One of the five standards for internal control, according to the GAO Standards for
Internal Control in the Federal Government, dated November 1999, is “control
activities.” An example of a control activity that is common to all agencies is the
appropriate documentation of transactions. Specifically per the GAO standard:

   Internal control and all transactions and other significant events need to be
   clearly documented, and the documentation should be readily available for
   examination. The documentation should appear in management directives,
   administrative policies, or operating manuals and may be in paper or electric
   form. All documentation and records should be properly managed and
   maintained.

TAA staff acknowledged an issue with recording this element, because of the difficulties
following up with participants, such as participants who might have left the program
early. In addition, staff at one SWA discussed issues with obtaining follow-up
information from WIA regarding participants that leave TAA and go to WIA for additional
services. As a result of these issues, the SWA personnel were unable to provide
auditors with source documentation to validate the recorded date of exit.

We were able to verify to source documents the data used to report the program results
for seven of the eight data elements; however, the accuracy of the data for five of these
seven elements is dependent upon the accuracy of the “date of exit” data element. For
example, the “date of exit” must be accurate to determine if a participant is employed in
the first quarter after exit. Since data from these elements are used by ETA to support
Performance Goal 2.3B, we were unable to determine the completeness and reliability
of the reported performance data for the TAA program.




U.S. Department of Labor—Office of Inspector General                                     7
Report Number: 22-05-007-03-330
GPRA Data Validation Review, TAA Program

Recommendations

To improve the completeness and reliability of Trade Adjustment Assistance program’s
performance data, we recommend the Assistant Secretary for Employment and Training
ensure the TAA Program:

       Collects and records the participant’s actual “date of exit” according to ETA’s
       written definition.
       Properly manages and maintains source documentation to support the actual
       “date of exit,” and makes it readily available for review.

Agency Response

In response to our draft report, the Assistant Secretary for Employment and Training
stated that ETA has clarified the “date of exit” definition in Training and Employment
Guidance Letter (TEGL) 32-04, State Accomplishment of Performance Goals for Trade
Adjustment Assistance (TAA) and North American Free Trade Agreement Transitional
Adjustment Assistance (NAFTA-TAA) Participants, issued on May 17, 2005.

On July 15, 2005, ETA issued TEGL 3-03 Change 3, Revision to the Data Validation
Policy for Employment and Training Programs for Program Year 2004, which reiterated
the requirement to validate the “date of exit,” which was first required in TEGL 3-03,
Change 1, issued on August 20, 2004. TEGL 3-03, Change 3, also provided a list of
source documentation requirements for each of the data elements being validated,
including the “date of exit.”

ETA has recently received OMB approval of a revision to the TAPR that reflects
common performance measures and reporting definitions for all employment and
training programs as outlined in TEGL 28-04, Common Measures Policy. As part of this
policy guidance, there is a revised, common definition for “date of exit.” Once a
participant has not received a service funded by the TAA program or a partner program
for 90 consecutive calendar days and has no planned gaps in service and is not
scheduled for future services, the date of exit is applied retroactively to the last day on
which the individual received a service funded by the TAA program or a partner
program. Using the same exit date where the TAA participant is served by multiple ETA
programs should serve to reduce confusion over the correct date. The TAA program
will move to the common measures beginning with the report for the first quarter of FY
2006.

As part of the implementation of the common measures, ETA has recently completed a
series of three national training sessions for all states on reporting definitions and
documentation requirements for outcome reports, including the TAPR. Correct use of
the “date of exit” was highlighted during those training sessions.

As part of common measures implementation, ETA will also be issuing revised reporting
instructions to the states, which will provide additional explanation of the “date of exit.”

8                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-05-007-03-330
                                                   GPRA Data Validation Review, TAA Program


Finally, ETA intends to issue additional guidance to the states addressing the specific
finding that states are entering the “date of exit” at intake based on the date it is
anticipated that training will end. States will be reminded that they are required to report
each participant’s actual date of exit, not an anticipated date of exit. ETA will also use
the guidance to reemphasize the source documentation requirements for each state
related to the “date of exit.”

OIG Conclusion

We agree with ETA’s planned corrective actions. The recommendations are resolved
and open. They will be closed upon OIG’s receipt and review of revised reporting
instructions that further explain the “date of exit” and identify the documentation that
states must maintain to support the recorded “date of exit.”




Elliot P. Lewis
April 6, 2005




U.S. Department of Labor—Office of Inspector General                                       9
Report Number: 22-05-007-03-330
GPRA Data Validation Review, TAA Program




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




10                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-007-03-330
                                                   GPRA Data Validation Review, TAA Program




Exhibit




U.S. Department of Labor—Office of Inspector General                                    11
Report Number: 22-05-007-03-330
GPRA Data Validation Review, TAA Program




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-007-03-330
                                                   GPRA Data Validation Review, TAA Program

                                                                               EXHIBIT A
  A. TRADE ADJUSTMENT ASSISTANCE PERFORMANCE DATA AND
              RESULTS FOR CALENDAR YEAR 2003

                               Summary Data (by quarter)

                                                       Quarter ending


             Calendar Year            3/31/2003 6/30/2003 9/30/2003 12/31/2003
Number of exiters                       7612      6966      9149       8066
Number of exiters employed in the
first quarter after exit                4603      4020      5575       4911
Number of exiters employed in the
first quarter after exit who are also
employed in the third quarter after
exit                                     4059      3578      4985      4388
Average earnings in the second and
third quarter after program exit       $4,798    $5,151    $5,026     $5,064




                                     Quarter ending


Computations      3/31/2003     6/30/2003     9/30/2003    12/31/2003     Average
Entered              60%           58%           61%          61%          60%
Employment
Retention            88%           89%           89%           89%          89%
Wage                 76%           74%           70%           73%          73%
Replacement

Performance goal indicators computation definitions:

Indicator 1 (Entered Employment)
Number employed in the first quarter after exit / total exiters
Indicator 2 (Retention)
Number employed in the first quarter after exit who are also employed in the third
quarter / number employed in the first quarter after exit
Indicator 3 (Wage Replacement)
Average earnings in the second and third quarter after program exit / average earnings
in the second and third quarter before layoff



U.S. Department of Labor—Office of Inspector General                                    13
Report Number: 22-05-007-03-330
GPRA Data Validation Review, TAA Program




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-007-03-330
                                                   GPRA Data Validation Review, TAA Program




Appendices




U.S. Department of Labor—Office of Inspector General                                    15
Report Number: 22-05-007-03-330
GPRA Data Validation Review, TAA Program




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-007-03-330
                                                      GPRA Data Validation Review, TAA Program



                                                                                   APPENDIX A
A. BACKGROUND


The Trade Adjustment Assistance (TAA) program was established under the Trade Act
of 1974 (P.L. 93-618). Regulations governing the TAA program are found at 20 CFR,
Chapter V, Part 617. TAA’s purpose is “to assist individuals, who became unemployed
as a result of increased imports, return to suitable employment.”

ETA administers the TAA program and each state designates a state agency, usually
the state workforce agency (SWA), to serve as DOL's agent in administering the
program.

In order to qualify for TAA benefits, a displaced employee must be eligible. The first
step is for one of the following entities to file a petition to determine certification
eligibility; the company, the employees’ union, or three individually displaced
employees. Once the petition is filed, TAA initiates an investigation that lasts no longer
than 40 days. During this investigation, TAA personnel contact the Human Resources
department of the company in question to ascertain information as required by 29 CFR
part 90. Once the investigation is completed, the petition is either accepted (eligible) or
declined (ineligible). After eligibility is determined, it is the state’s responsibility to notify
the displaced workers of eligibility by mail (through a mailing list provided by the
company) or through television and radio public service announcements. Once the
displaced employee receives notification, he/she is able to apply for TAA benefits at the
local office of the SWA.

In 1998, ETA implemented a new reporting method, the Trade Act Participant Report
(TAPR), which is the record used by the SWA to collect and report the TAA participants’
data submitted quarterly to ETA. Quarterly the SWA uploads the TAPR from its
automated system into ETA’s Enterprise Information Management System (EIMS).
EIMS is an Oracle Internet based system that allows real time reporting of TAA’s
performance data. The TAPR must be submitted, by each SWA, to ETA’s Office of
Technology and Information Services (OTIS) via Internet. The TAPR is the mechanism
for ETA’s Division of Trade Adjustment Assistance (DTAA) to collect and report
performance data and participant outcomes for the TAA program.

Training and Employment Guidance Letter No. 3-03 was issued August 20, 2003, to
provide guidance on implementing the data validation policy for ETA programs. The
accuracy and reliability of program reports submitted by states using Federal funds are
fundamental elements of good public administration, and are necessary tools for
maintaining and demonstrating system integrity. All states are required to submit
reports or participant records to ETA and attest to the accuracy of their data. ETA has
committed to the development and implementation of a data validation process in order
to ensure the accuracy of data collected and reported on program activities and
outcomes.

U.S. Department of Labor—Office of Inspector General                                            17
Report Number: 22-05-007-03-330
GPRA Data Validation Review, TAA Program




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-007-03-330
                                                   GPRA Data Validation Review, TAA Program

                                                                             APPENDIX B
B. OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA

Objective

To determine the completeness and reliability of DOL CY 2003, GPRA performance
data for TAA.

Scope and Methodology

We conducted our review to determine the completeness and reliability of the
CY 2003 data used to support the FY 2003 performance goal 2.3B (changed in FY 2004
to 1.1G). We selected TAA data from CY 2003 for our review. We obtained the
quarterly TAPRs of TAA performance summary data from ETA for CY 2003. The
auditors compiled the data received, and using ETA’s formulas, calculated results
based on CY 2003 data. (See Exhibit A.) The universe for data reported during CY
2003, included participants who exited the TAA program between October 2001 and
September 2002. The number of exiters was obtained by quarter from the OTIS. In
addition, a universe of participants for CY 2003 was obtained for the states from ETA’s
National Office. Once the auditors obtained the universe of participants, we contacted
program administrators in the four states selected for review and requested the
participant case files. The participant data provided by the states were used in the
review without being subjected to audit or examination procedures.

Four states and 150 exiters were judgmentally selected for our review. The universe
containing all states was divided into three strata, high, medium and low based on the
number of exiters reported during the CY 2003. Two sites were selected from those
states reporting a range of program exiters of more than 1,000, one site was selected
from the states reporting a range of program exiters of 200-999 and the final site was
selected from the states reporting a range of program exiters less than 200 for the CY
2003.

The auditors conducted interviews and reviewed 30 participant files in New Jersey and
40 participant files in each state of Georgia, Illinois and North Carolina. We did not
issue reports to each state. Rather, we provided a Statement of Facts (SOF) on the
information we gathered to ETA’s DTAA program. ETA indicated agreement with the
facts presented by signing the SOF.

The auditors’ fieldwork was comprised of conducting tests to assess the completeness
and reliability of the performance data. We selected 8 of the 49 data elements from the
Trade Act Participant Report (TAPR) because they were the elements used to calculate
the performance goal results. We verified the data reported in these eight data
elements against source documentation provided by SWA personnel. In addition, we
conducted interviews with ETA’s National Office TAA program and Information
Technology staff and SWA personnel. Weaknesses are discussed in the Assistant
Inspector General’s Report.

U.S. Department of Labor—Office of Inspector General                                     19
Report Number: 22-05-007-03-330
GPRA Data Validation Review, TAA Program


Criteria

The main criteria that govern the work performed is as follows:

      OMB Circular No. A-11 (July 16, 2004), Section 230.2 which states that agencies
      are required to assess the completeness and reliability of performance data
      reported;
      OMB A-123, which requires agency managers to incorporate control strategies,
      plans, guidance and procedures that govern their program’s operations;
      ETA Training and Employment Guidance letter No. 11-00, which requires
      documentation of last date on which Trade Act services or WIA Title I services
      received by participants; and
      GAO Standards for Internal Control in the Federal Government November 1999.




20                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-007-03-330
                                                   GPRA Data Validation Review, TAA Program


                                                                             APPENDIX C
C. ACRONYMS AND ABBREVIATIONS


CY            Calendar Year
DOL           Department of Labor
DTAA          Division of Trade Adjustment Assistance
EIMS          Enterprise Information Management System
ESL           English as a Second Language
ETA           Employment and Training Administration
FY            Fiscal Year
GAO           Government Accountability Office
GPRA          Government Performance and Results Act
OIG           Office of Inspector General
OJT           On-the-Job Training
OMB           Office of Management and Budget
OTIS          Office of Technology and Information Services
SWA           State Workforce Agency
SOF           Statement of Facts
TAA           Trade Adjustment Assistance
TAPR          Trade Act Participant Report
TRA           Trade Readjustment Allowance
UI            Unemployment Insurance
WIA           Workforce Investment Act




U.S. Department of Labor—Office of Inspector General                                    21
Report Number: 22-05-007-03-330
GPRA Data Validation Review, TAA Program




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-007-03-330
                                                   GPRA Data Validation Review, TAA Program


                                                                             APPENDIX D
D. AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                    23
Report Number: 22-05-007-03-330
GPRA Data Validation Review, TAA Program




24                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-007-03-330
                                                   GPRA Data Validation Review, TAA Program




U.S. Department of Labor—Office of Inspector General                                    25
Report Number: 22-05-007-03-330
